U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530
December 10, 2020

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Christopher Mikelinich v. USA,
S.Ct No. 20-6347

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 6,
2020 and placed on the docket on November 17, 2020. The government’s response is due on
December 17, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6347
MIKELINICH, CHRISTOPHER
USA

STEVEN Y. YUROWITZ
NEWMAN & GREENBERG
950 THIRD AVENUE,
32ND FLOOR
NEW YORK, NY 10022
212-308-7900
SYUROWITZ@NEWMANGREENBERG.COM

